smu (SQCKLE

Le 2 al Brie fg E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-234

LIBERTARIAN NATIONAL COMMITTEE, INC.,
Petitioner,
v.
FEDERAL ELECTION COMMISSION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF GOLDWATER INSTITUTE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4480 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . LE Qudraw- .
My Commission Expires Nov 24, 2020 a

Notary Public Affiant 38623

 

 
